No. _ _ _ __

IN THE

~uprcmc

<nnurt of f~£ Unttcb ~fatcn
DONNA CORBELLO,

Petitioner,

v.
FRANKIE VALLI, ET AL.,

Respondent.

CERTIFICATE OF SERVICE
I, Gregory Harris Guillot, counsel for the Petitioner, and a member of the Bar of
this Court, certify that on April 12, 2021, pursuant to an agreement between the
parties, I served a copy of the Petition for Writ of Certiorari in the above-captioned
case by electronic mail, upon David S. Korzenik, of Miller Korzenik Sommers
Rayman LLP, 1501 Broadway, Suite 2015, New York, NY 10036, who will be
Counsel of Record for all Respondents . herein, via the electronic mail address,
dkorzenik@mkslex.com. I further certify that all parties required to be served have
been served.
Executed in Dallas, Texas on this 12th day of April, 2021.

GREGORY HARRIS GUILLOT
GREGORY H. GUILLOT, P.C.
2626 COLE AVE., SUITE 300
DALLAS, TX 75204
(972) 888-6072
gregorv@guillot-law.com
Counsel for Petitioner

